0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Federal Defender Capital Habeas Units as Amici
Curiae in Support of Respondents in 20-1009, David
Shinn, et al. v. David Martinez Ramirez and Barry Lee
Jones, were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
and e-mail service to the following parties listed below,
this 20th day of September, 2021:
Lacey Stover Gard
Office of the Attorney General
400 West Congress Street
Bldg. S-315
Tucson, AZ 85701
(520) 628-6654
lacey. gard@azag.gov

Counsel for Petitioners
Robert Mark Loeb
Orrick, Herrington & Sutcliffe LLP
1152 15th Street, NW
Washington, DC 20005
(202) 339-84 7 5
rloe b@orrick.com

Counsel for Respondents
David Martinez Ramirez & Barry Lee Jones

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Timothy M. Gabrielsen
Federal Public Defender's Office
407 W. Congress, Ste. 501
Tucson, AZ 85701
(520) 879-7614
tim_gabrielsen@fd.org

Counsel for Respondents David Martinez Ramirez
Joel W. Nomkin
Perkins Coie LLP
2901 North Central Avenue, Suite 2000
Phoenix, AZ 85012
(602) 351-8185
jnomkin@perkinscoie.com

Counsel for Amici Robert Bartels and The Arizona
Justice Project
Elizabeth Ashley Kiernan
Gibson, Dunn & Crutcher LLP
2001 Ross Avenue, Suite 2100
Dallas, TX 75201
(214) 698-3100
ekiernan@gibsondunn.com

Counsel for Amici Jonathan F. Mitchell and Adam K.
Mortara
Kent S. Scheidegger
Criminal Justice Legal Fdtn.
2131 L Street
Sacramento, CA 95816
(916) 446-0345
briefs@cjlf.org

Counsel for Amicus Criminal Justice Legal Foundation

Judd Edward Stone II
Texas Attorney General's Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
(512) 936-1700
judd.stone@oag.texas.gov
Counsel for Amici The States of Texas, et al.
Paul Alessio Mezzina
Counsel of Record
Joshua N. Mitchell
King & Spalding LLP
1700 Pennsylvania Avenue NW
Washington, DC 20006
(202) 737-0500
pmezzina@kslaw.com
jmitchell@kslaw.com
Counsel for Amici Curiae
Federal Defender Capital Habeas Units

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 20, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date :

~tu-t

d0 , unr:J/

c}A,tJ. ~

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public. Staie of Ohio
My commission Expires
rebru?ry 14, 2023

